No. 21-5050
IN THE

Supreme Court of the United States
KRISTOPHER LOVE,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Criminal Appeals of Texas

PROOF OF SERVICE

I am a member of the Bar of this Court, and I hereby certify that on the 8th
day of September, 2021, a copy of Respondent’s Brief in Opposition to Petition for a
Writ of Certiorari was sent by mail and electronic mail to counsel for Petitioner, John
Tatum, Walnut Glen Tower, 8144 Walnut Hill Lane, Suite 1190, Dallas, Texas 75231,
jtatumlaw@gmail.com. All parties required to be served have been served.
/s/ Jaclyn O’Connor Lambert
JACLYN O’CONNOR LAMBERT
Assistant District Attorney
Frank Crowley Courts Bldg.
133 N. Riverfront Blvd., LB-19
Dallas, Texas 75207
(214) 653-3625
Jaclyn.OConnor@dallascounty.org
Counsel for Respondent

